U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 22, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Duy T. Mai v. United States of America, et al.
S.Ct. No. 20-819

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
18, 2020, and placed on the docket on December 17, 2020. The government’s response is due on
January 19, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 18, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0819
MAI, DUY T.
USA, ET AL.

VITALIY A KERTCHEN
KERTCHEN LAW, PLLC
917 S 10TH ST.
TACOMA, WA 98405
253-905-8415
VITALIY@KERTCHENLAW.COM

